OFFICE OF INSPECTOR GENERAL 



AUDIT OF USAID/TANZANIA’S
PROGRESS IN
IMPLEMENTING THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 9-621-06-006-P
MAY 4, 2006




WASHINGTON, DC

   Office of Inspector General


   May 4, 2006

   MEMORANDUM

   TO:                  USAID/Tanzania Mission Director, Pamela White

   FROM:                IG/A/PA Director, Steven H. Bernstein /s/

   SUBJECT:             Audit Of USAID/Tanzania’s Progress in Implementing the President’s Emergency
                        Plan for AIDS Relief (Report No. 9-621-06-006-P)

   This memorandum transmits our final report on the subject audit. In finalizing our report, we
   considered your comments on our draft report and have included your response in its entirety in
   Appendix II.

   This report includes a recommendation that USAID/Tanzania develop a monitoring plan—
   including field site visits and milestones—based on a risk assessment of its partners and their
   activities. Since a management decision has been reached and final action has been taken, the
   recommendation is closed upon issuance of this report.

   I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
   during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ......................................................................................................... 1 


Background ....................................................................................................................... 2 


Audit Objective .................................................................................................................... 3 


Audit Findings ................................................................................................................... 4 


     The Late Receipt of Funds Has
     Delayed Progress Towards Outputs ............................................................................ 4 


     USAID/Tanzania Should Strengthen its
     Monitoring of Partners’ Reported Data.......................................................................... 6 


Evaluation of Management Comments ........................................................................... 8 


Appendix I – Scope and Methodology ............................................................................ 9 


Appendix II – Management Comments ........................................................................... 11 


Appendix III – Progress Towards Outputs, by Partner.................................................. 13 


Appendix IV – Timeline for USAID/Tanzania FY 2005 Activities................................... 19 

SUMMARY OF RESULTS

This audit, performed by the Performance Audits Division, is the pilot in a series of audits
to be conducted by the Office of Inspector General. The objective of this audit was to
determine whether USAID/Tanzania's Emergency Plan prevention and care activities
were progressing as expected towards the planned outputs in its grants, cooperative
agreements, and contracts. (See page 3.)

As a result of our audit, we concluded that USAID/Tanzania’s activities were not
progressing as expected towards meeting planned outputs in their grants, cooperative
agreements, and contracts due to the late receipt of FY 2005 funding. We are not
making any recommendations on this finding because actions have already been taken
by management to remedy this situation and to prevent it from reoccurring in the future.
(See page 4.)

This report does include a recommendation that USAID/Tanzania develop a monitoring
plan—including field site visits and milestones—based on a risk assessment of its
partners and their activities. (See page 7.) Since a management decision has been
reached and final action has been taken, the recommendation is closed upon issuance
of this report. See page 8 for our evaluation of management’s comments.

Management’s comments are included in their entirety in Appendix II.




                                                                                          1
BACKGROUND

Congress enacted legislation to fight HIV/AIDS internationally through the President’s
Emergency Plan for AIDS Relief (Emergency Plan). The $15 billion, 5-year program
provides $9 billion in new funding to speed up prevention, care, and treatment services in
15 focus countries.1 The Emergency Plan also devotes $5 billion over five years to
bilateral programs in more than 100 countries and increases the U.S. pledge to the Global
Fund2 by $1 billion over five years. The fiscal year (FY) 2005 budget for the Emergency
Plan focus countries totaled $1.03 billion. The Emergency Plan is directed by the
Department of State’s Global AIDS Coordinator (AIDS Coordinator) and implemented
collaboratively by country teams composed of staff from USAID, the Department of State,
the Department of Health and Human Services, and other Federal agencies.

Tanzania is one of the 15 focus countries. The U.S. Government Mission in Tanzania was
allocated $85.7 million during FY 2005, of which $44.2 million was managed by USAID.
The Bureau for Global Health has general responsibility for USAID’s participation in the
Emergency Plan. More specifically, the Director of Global Health’s Office of HIV/AIDS
provides the technical leadership for USAID’s HIV/AIDS programs.

The U.S. President and Congress have set aggressive goals for addressing the worldwide
HIV/AIDS pandemic. The worldwide goal over 5 years is to provide treatment to 2 million
HIV-infected people, prevent 7 million HIV infections, and provide care to 10 million people
infected and affected by HIV/AIDS, including patients and orphans.               The AIDS
Coordinator—which directs the U.S. Government’s fight against HIV/AIDS
internationally—divided these Emergency Plan targets among the 15 focus countries and
allowed each country to determine its own methodology for achieving its portion of the
assigned targets by the end of five years. The U.S. Government Mission in Tanzania
committed to achieving the following targets by September 30, 2005.




1
  Twelve countries in Africa (Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia,
Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia), and three other countries
(Guyana, Haiti and Vietnam).
2
 The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis
and malaria.




                                                                                            2
                        U.S. Government Emergency Plan 

                          FY 2005 Targets for Tanzania 


                     Prevention                              Care                Treatment

      Pregnant Women           Pregnant Women            Individuals             Individuals
    Receiving Antiretroviral   Receiving PMTCT3        Receiving Care             Receiving
         Prophylaxis               Services             and Support             Antiretroviral
                                                                                  Therapy4

             6,896                  113,327                 51,250                 23,163



AUDIT OBJECTIVE
As part of the Office of Inspector General’s fiscal year 2006 annual audit plan, this audit
was conducted as a pilot for a series of worldwide audits of USAID’s progress in
implementing the President’s Emergency Plan for AIDS Relief. The audit was conducted
to answer the following question:

•	 Are USAID/Tanzania’s Emergency Plan prevention and care activities progressing as
   expected towards the planned outputs in its grants, cooperative agreements, and
   contracts?

Appendix I contains a discussion of the audit’s scope and methodology.




3
    PMTCT means prevention of mother-to-child HIV transmission.
4
  This audit focused only on prevention and care, not treatment, under which antiretroviral therapy
falls.




                                                                                                 3
AUDIT FINDINGS

USAID/Tanzania’s prevention and care activities were not progressing as expected
towards meeting planned outputs contained in grants, cooperative agreements, and
contracts with its partners. For the six partners reviewed, representing 81 percent of the
USAID/Tanzania prevention and care funding for fiscal year (FY) 2005, 6 of 14 key
outputs (43 percent) selected for review were not being met.

At the time of our audit, all ongoing USAID/Tanzania activities were FY 2005 Country
Operational Plan (Operational Plan) activities, except that the funding is either from FY
2004 or 2005. Some partners’ 2005 activities were a continuation of 2004 activities.
This report discusses progress toward outputs in detail, by partner, in Appendix III (see
page 13).

We found that the late receipt of FY 2005 funds had delayed progress toward outputs,
and that USAID should strengthen the monitoring of its partners’ reported data. These
issues are addressed in the following subsections.

The Late Receipt of Funds Has
Delayed Progress Towards Outputs

    Summary: The FY 2005 country operational plan contained outputs that should
    have been met by every prevention and care partner. However, progress towards
    achieving those outputs has been severely delayed, primarily due to the late
    availability of FY 2005 funds. For the six partners selected, representing 81
    percent of the USAID/Tanzania prevention and care funding for FY 2005, 6 of 14
    key outputs (43 percent) selected were not met, which jeopardized the
    achievement of USAID outputs and could hinder progress towards U.S.
    Government targets.

Pact and the Academy for Educational Development did not make progress towards
their key outputs because they had not received FY 2005 funds, and therefore, their
activities had not significantly started by September 30, 2005. Another partner, African
Medical and Research Foundation, met one of three key outputs. Elizabeth Glaser
Pediatric AIDS Foundation met three of four outputs. The remaining two partners,
CARE International and Family Health International, exceeded their two key outputs.

As explained below and in more detail in Appendix III, the primary reason for not
achieving progress towards outputs was the late availability of FY 2005 funds.5 FY 2005
funds were first available to USAID/Tanzania in April 2005, but the amounts were at FY
2004 levels, which were approximately 50 percent of the requested amounts. FY 2005
funding was not made fully available until July or August 2005. (See timeline on
Appendix IV, on page 19.)
5
 The AIDS Coordinator acknowledged the funding delay for Tanzania activities in its June 2005
update to its FY 2005 Operational Plan.




                                                                                           4
The root causes for the funding delays were various, as discussed below:

          (1) The U.S. Government Tanzania team initially submitted its FY 2005
          Operational Plan in October 2004, but it was not approved until March 2005
          because the AIDS Coordinator believed that the initial country strategy was
          somewhat vague and needed more clarity. Other reasons for the delay were
          AIDS Coordinator’s concerns about the Government of Tanzania policies and
          rollout plan on antiretrovirals, and the need for additional information on various
          issues, such as the role of two mass media partners, links to blood safety
          programs, Tanzania faith-based organization networks, and concerns on the
          clarity of the strategies for home–based and palliative care.

          (2) The Strategic Objective Agreement (SOAG) was not sent to the Government
          of Tanzania until April 2005, since the FY 2005 funds did not become available
          until earlier that month. The SOAG was sent to the Government of Tanzania’s
          Ministry of Health in April 2005, its Ministry of Finance in May 2005, and was
          approved on June 6, 2005.

          (3) In August 2005, when the second tranche of funds became available, the
          regional contracting officer for Tanzania6 had competing priorities, creating
          congestion in the contracting process, as reported by USAID/Tanzania officials.

Funding delays, if not resolved, could jeopardize the achievement of USAID outputs as
well as U.S. Government targets. The Mission has taken a number of actions to prevent
the FY 2005 funding situation from occurring in FY 2006, as discussed below:

          (1) At the time of our audit, the FY 2006 Operational Plan was expected to be
          approved, and the AIDS Coordinator had highlighted no “red flags” on the plan.

          (2) In December 2005, the Mission hired a new agreements/contracting officer
          with an unlimited warrant, which eliminated the need to rely on the regional
          contracting officer located in Kenya.

          (3) The Mission now has an umbrella SOAG with the Government of Tanzania in
          place, with future actions limited to amendments.

          (4) The Mission stated that it will make efforts to circulate SOAG amendments to
          the Ministry of Health and the Ministry of Finance ahead of time, to increase the
          likelihood that the final SOAG will move swiftly, once the funds become available.

          (5) A revised five-year strategy was approved in April 2005, therefore, the
          strategy will not cause a delay for the FY 2006 Operational Plan.

          (6) The Mission expects that all FY 2006 funds will become fully available earlier
          in the fiscal year.


6
    The regional contracting officer for Tanzania at the time was based in Kenya.




                                                                                           5
Since the Mission has already taken actions to address causes for funding delays that
could jeopardize the achievement of outputs, we are not making any recommendations.

USAID/Tanzania Should Strengthen its
Monitoring of Partners' Reported Data

    Summary: According to USAID’s Automated Directives System 202.3.6, monitoring
    the quality and timeliness of outputs produced by implementing partners is a major
    task of cognizant technical officers and strategic objective teams. However,
    reportedly due to insufficient staff and workload demands associated with the
    Emergency Plan, USAID/Tanzania’s technical officers had not conducted site visits
    as frequently as they would have liked. Insufficient monitoring of its partners could
    jeopardize the achievement of future outputs and targets, and impact the quality of
    the program data reported by the partners to the Mission, and the target information
    reported to the U.S. Government by USAID/Tanzania.

Mission officials acknowledge that they had conducted some field visits to monitor
partners’ progress in achieving outputs, and expressed that they were conducting less
visits than they should. Officials stated that the Mission did not have the time and staff
to sufficiently monitor partners. In addition to limited site visits, officials monitor progress
using alternative methods. For example, the primary partners meet quarterly in Dar es
Salaam (the capital of Tanzania) to discuss program progress and challenges. During
these meetings, the Mission seeks clarification from partners on data contained in their
reports. Also, the Mission reviews quarterly reports prepared by partners to ensure that
the reported data conform to pre-established performance indicators and that activity
outputs are progressing as planned. In addition, the Mission ensures that the required
indicators are being reported. Also, in February 2005, the Mission conducted a
workshop to inform the partners on data and indicators to be reported, as well as to
teach various definitions and explain data reporting timelines.

Notwithstanding the Mission’s review of partners’ reports, some data quality mistakes
could have been prevented or detected earlier with more frequent site visits and
verification of reported data through inspection of partners’ records. For example, CARE
reported 1,047 orphans assisted as of September 30, 2005 through Alpha Dancing
Group, which was its subgrantee. However, whereas the subgrantee’s internal reports
initially supported 1,118 orphans, an examination of records showed that 1,077 people
received support as of August 15, 2005. Officials were unable to explain why the
register did not list any participant names that signed up past August 15, 2005. The net
effect of these two mistakes was minimal (the total count reported to USAID was 1,047,
while the actual count was 1,077,7 or less than a 3% difference), but without an
independent verification, discrepancies could be larger and go undetected. Likewise,
slight undercounts in the records of other CARE subgrantees appeared to be caused by
a confusing monthly reporting form.8
7
 Of course, the actual total might have increased for any new participants that joined during the
August 15 to September 30, 2005 timeframe.
8
  CARE is already using a new reporting form, which should prevent this situation from
reoccurring. The confusion occurred due to the layout of the prior form, since the cumulative



                                                                                               6
Similarly, errors in the records of Iringa Development of Youth Disabled and Children
Care, a Family Health International subgrantee, were identified.          According to
documents we reviewed, it underreported the number of individuals reached with
community outreach prevention programs promoting abstinence and/or being faithful.
Iringa Development of Youth Disabled and Children Care reported that it reached
1,679,923 individuals, while it documented 1,977,284 individuals, or approximately a 15
percent undercount. USAID/Tanzania officials and its implementers were unaware of
these discrepancies until the auditors made site visits and performed tests on the
partners’ records.

According to Mission officials, the lack of monitoring was due to the heavy workload
associated with the Emergency Plan, and was exacerbated by not having sufficient staff.
Additionally, some partners’ activities were located in remote areas of the country and
the long distances from Dar es Salaam make it a challenge to conduct regularly
scheduled field visits.

USAID/Tanzania had initiated several actions to strengthen the monitoring of its
partners’ progress. For example, the Mission had hired a contractor to work on strategic
information,9 but the contractor resigned after nine months, and the Mission was looking
for a replacement in December 2005. In addition to this contractor, the Mission also
expects to hire a full-time Foreign Service National to work on monitoring.

Actions undertaken by the Mission are commendable and are positive steps for
improving the monitoring of its partner’s progress. However, despite these actions, we
believe that the Mission’s monitoring of its Emergency Plan activities need to be further
strengthened in a more systematic way. For example, the number of field visits could
increase, and data reviews at both the implementer and mission levels could occur more
frequently and be more thorough.           Accordingly, we are making the following
recommendation.

       Recommendation No. 1: We recommend that USAID/Tanzania develop a
       monitoring plan—including field site visits and milestones—based on a
       risk assessment of its Emergency Plan partners and their activities.




figures (the prior month’s total plus new cases) were not apparent from the design of the form,
and could easily be misinterpreted.
9
  Strategic information, within the context of HIV/AIDS, is information that measures treatment,
prevention, and care activities to help facilitate program improvement, evaluate progress, and
ensure policy compliance.




                                                                                              7
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our audit report, USAID/Tanzania agreed with the audit findings and
recommendation and described actions taken and planned to address our concerns.
The Mission’s comments and our evaluation of those comments are summarized below.

USAID/Tanzania agreed with our audit finding that the late receipt of funds has delayed
progress toward outputs. The Mission has undertaken additional steps since the audit
team’s visit to work more closely with the Government of Tanzania to process and clear
documentation in a timelier manner. In addition, the new cognizant technical officer has
implemented methods to speed up the obligation of funds. As a result of these actions,
funds for fiscal year 2006 were obligated four months earlier than fiscal year 2005.

USAID/Tanzania agreed with our finding that stated that the Mission should strengthen
the monitoring of its partner’s reported data. Also, the Mission concurred with our
recommendation, and subsequent to the audit, developed a monitoring plan, which
schedules staff visits to the field based on prioritized needs. Accordingly, we believe
that a management decision has been reached and that final action has been taken on
this recommendation upon issuance of this report.

We removed the statement that Mission officials could not quantify the number of site
visits from the final audit report.

Management comments are included in their entirety in Appendix II. (See page 11.)




                                                                                      8
                                                                                   APPENDIX I 




SCOPE AND METHODOLOGY

SCOPE
The Performance Audits Division of the Office of Inspector General conducted this audit
in accordance with generally accepted government auditing standards. Fieldwork was
conducted from November 30, 2005 through December 21, 2005 in Dar es Salaam,
Arusha, and Iringa, Tanzania. Fieldwork continued in Washington and was completed
on January 25, 2006.

This pilot audit was the first of a series of worldwide audits to be conducted by the Office
of Inspector General.        The objective of this audit was to determine whether
USAID/Tanzania Emergency Plan prevention and care activities were progressing as
expected towards the planned outputs in its grants, cooperative agreements, and
contracts.

In conducting this audit, we assessed the effectiveness of USAID’s internal controls with
respect to consolidating reporting data for USAID’s portion of the U.S. Government
annual progress report of its activities through September 30, 2005. We identified
internal controls such as USAID’s process for monitoring its partners’ progress and
reporting; and USAID partners’ process for compiling regional data to their country-level
reports.

For the period audited, 14 partners were scheduled to be engaged in prevention and
care activities. We judgmentally selected awards to 6 of the 14 partners. These six
partners represented 81 percent of the total funding for prevention and care activities.

METHODOLOGY
To answer the audit objective, we met with USAID’s staff in the Office of Global Health in
Washington, D.C. and reviewed prior Emergency Plan audit reports to gain an
understanding of the subject matter.           We performed an in-depth review of
USAID/Tanzania’s FY 2005 Country Operational Plan. Of the 14 partners engaged in
prevention and care activities for FY 2005, we selected six10 for review. We then
judgmentally selected 2 to 4 key outputs11 for each selected partner and compared those
output percentages against the audit threshold criteria to determine if planned outputs

10
     The selected implementers were (1) Academy for Educational Development
(http://www.aed.org/), (2) African Medical and Research Foundation (http://www.amref.org/), (3)
CARE International (http://www.care.org/), (4) Elizabeth Glaser Pediatric AIDS Foundation
(http://www.pedaids.org/), (5) Pact (http://www.pactworld.org/), and (6) Family Health
International (http://www.fhi.org/).
11
   In February 2006, the AIDS Coordinator announced that estimates of persons reached by
mass media programs are no longer reported, as such estimates are not sufficiently reliable to be
useful. Therefore, our report did not use key outputs that were based on estimates of persons
reached by mass media programs.




                                                                                               9
                                                                             APPENDIX I 



were achieved. The audit threshold criteria were as follows:

     1) 	If at least 90 percent of the selected key outputs have been achieved,12 the
         answer to the audit objective would be positive.

     2) 	 If at least 80 percent but less than 90 percent of the selected key outputs have
          been achieved, the answer to the audit objective would be qualified.

     3) 	If less than 80 percent of the selected key outputs have been achieved, the
         answer to the audit objective would be negative.

We interviewed Mission officials and in-country partners, and reviewed quarterly reports
to determine whether progress towards outputs was being achieved. Also, we observed
operations at various sites, and met with several partner personnel and beneficiaries.
We also reviewed subgrantees documentation, and traced selected indicators to the
prime partner's reports.




12
  The audit team considered an output to be achieved if the partner completed at least 90
percent of the expected (planned) output.




                                                                                       10
                                                                    APPENDIX II 




MANAGEMENT COMMENTS

April 26, 2006

MEMORANDUM

TO:              IG/A/PA Director, Steven H. Bernstein

FROM:            USAID/Tanzania Mission Director, Pamela White /s/

SUBJECT:         Audit of USAID/Tanzania’s Progress in Implementing the
                 President’s Emergency Plan for AIDS Relief (Report No. 9-621-06-007-P)

The Tanzania Mission appreciates the opportunity to respond to the Audit Report
of USAID/Tanzania’s Progress in Implementing the President’s Emergency Plan
for AIDS Relief, as submitted March 30, 2006. This memorandum transmits the
management comments to be included in the Audit Report. In general, we are
pleased with the audit report, and its findings and recommendations will be very
helpful in strengthening our program, the reliability of our monitoring and
evaluation systems, and our ability to work more effectively. The Mission
concurs with the Scope and Methodology description as provided in Appendix I.

Following are our specific comments on the remaining sections of the report:

Audit Finding 1: The Late Receipt of Funds has Delayed Progress Towards
Outputs

The Mission agrees with this Finding.        The timeline and delays detailed in
Appendix III of the report are accurate. The preventive actions outlined in the
audit report are also accurate. Additional steps have been also undertaken since
the audit team’s visit to work more closely with the Government of Tanzania so
that they better understand the SOAG amendment process and clear the
documentation in a more timely fashion. Specifically, agreement has been
reached with the Government of Tanzania (GOT) to discuss and approve the
specifics of the SOAG amendments in advance of their formal submission. In
addition, the new Contracting Officer at the Mission has planned and
implemented, coordinated with the technical staff, methods to have
documentation approved in advance of funds becoming available so that
obligation documents can move quickly as soon as funds do become available.
Indeed, early funds were obligated for FY06 as early as March 2006 (four months
earlier than FY05).

Other comments:       The delay in the start of the Pact award for an
Orphan/Vulnerable Children (OVC) activity, as cited in the audit report, has now
been addressed through an award made on January 10, 2006. By March 31,


                                                                               11

                                                                      APPENDIX II


2006, their first sub-grant to serve 491 OVC had been approved by the Mission.

The progress with Academy for Educational Development, initially delayed
because of late receipt of funds and proprietary challenges by the prior contractor
vis-à-vis a male condom brand, has accelerated significantly. The new male
condom has now been launched,

Audit Finding 2: USAID/Tanzania Should Strengthen its Monitoring of
Partners’ Reported Data

The Mission agrees with this finding, noting that workload demands made it
difficult to monitor partners’ activities as closely as the team would have liked.
Following the review of specific activities, there have been corrective actions
taken in the programs that were mentioned in the audit. For example, Care
Tumaini was noted to have some data quality errors that could have been
prevented or detected earlier. While the magnitude of the errors was small,
within 3 months of the audit Care Tumaini corrected the weaknesses in their
systems and sent teams to every sub-grantee to trace their aggregated data
back to the source documents to validate the numbers to be reported for the next
O/GAC reporting cycle. Family Health International’s YouthNet activity also has
reviewed its reporting processes and provided additional training for those
performing activity monitoring for improved accuracy.

Recommendation 1: We recommend that USAID/Tanzania develop a monitoring
plan—including field site visits and milestones—based on a risk assessment of its
Emergency Plan partners and their activities.


The Mission agrees with this recommendation. Subsequent to the audit, the
Mission Director requested that a Monitoring Plan be developed no later than
January 30, 2006. This Monitoring Plan, which schedules staff visits to the field
based on prioritized needs, has been put in place and is on record in the
Mission’s Program Office. Prioritization is based on a risk assessment (dollar
volume of mechanism; reporting irregularities, etc.) of partners and their
activities. In addition the team is transitioning to a more systematic Monitoring
Plan, to be implemented by the 3rd quarter of the 06 FY. The plan will include an
assessment of each partner’s M&E technical assistance needs and joint site
visits by technical managers and an M&E specialist. The effort will be staffed by
a new Foreign Service National who joined the team early in calendar year 06,
and a senior advisor to be placed by Measure/Evaluation. The advisor position is
in the final stages of recruitment. Based upon this action the Mission requests
this recommendation be closed upon issuance.

The Mission does wish to correct one error in this section of the draft report. It
states that Mission officials could not quantify the number of site visits. This is
not correct. Trip approvals and the respective trip reports are a matter of record
at the Mission, and could have been quantified.


                                                                                12
                                                                                  APPENDIX III


Progress Towards Outputs, by Partner
Pact – Pact’s activities did not progress as planned in FY 2005 due to the late receipt of
FY 2005 funds, as well as to unexpected award requirements. Pact had not received
any FY 2005 funds by September 30, 2005,13 the end of FY 2005. The Mission
prioritized FY 2005 funding for other partners over Pact, as the FY 2005 funds was
received in tranches.

Additionally, Pact’s award is under the Leader with Associate14 mechanism. This type
of award mechanism required a subordinate full-scale proposal by Pact, and apparently
this was not known to Pact until late 2005. Pact submitted its first concept paper to
USAID on May 2005 and its last proposal on December 15, 2005. As a result of the late
funding and the award mechanism requirements, the start of Pact activities was
significantly delayed.

Pact was programmed to receive $3 million in FY 2005 funding for care of orphans and
vulnerable children. Pact primarily gives grants to local non-governmental organizations,
on a competitive basis, for education, health, nutrition, psychological support, and other
purposes; and also to the Government of Tanzania’s Department of Social Welfare,
whose social workers will train other social workers. We selected one key output (see
table below), and although it had not been reached, Pact has substantially completed
preparatory activities such as planning. The Mission notified us that Pact was ready to
start its activities as soon as it receives its funding.

                                                     Planned           Achieved
Output description                                   FY2005            FY 2005     Percentage
                                                     Output             Output      Achieved

Number of Orphans Assisted                            18,000              0            0%



Academy for Educational Development – Its activities did not progress as planned in
FY 2005 due to a late receipt of FY 2005 funds and significant challenges related to the
development and distribution of a male condom brand from a prior USAID contractor.
The Academy for Educational Development had not received any FY 2005 funds by
September 30, 2005,15 and its FY 2005 activities did not start until around April or May of
2005, using FY 2004 funds. The Mission prioritized FY 2005 funding for other partners
13
     Pact funds were scheduled to be obligated on December 15, 2005.
14
   Leader with Associate Awards are cooperative agreements or grants which missions or
regional bureaus develop with the “Leader.” The “Leader” is the lead organization, which
successfully competed for the Leader with Associate Awards, and which is primarily responsible
for implementation of the project. After the Leader has already secured the grant or cooperative
agreement via a competitive process, missions can create their own agreements with the Leader
without going through a competitive (or sole source justification) process. The mission has full
control over the development and the management of the Associate Award.
15
  The Academy for Educational Development’s FY 2005 funds were obligated on November 7,
2005.




                                                                                             13
                                                                                  APPENDIX III


over the funding for the Academy for Educational Development. As a result, the start of
activities was significantly delayed.

Additionally, the Academy for Educational Development encountered significant
challenges related to the development and distribution of male condoms from Population
Services International, the prior USAID contractor. For several years, USAID/Tanzania
had been working with Population Services International. Unbeknownst to the Mission,
Population Services International had trademarked the condom’s brand (Salama) in
Tanzania. After the Mission launched a new Request for Proposals, the Academy for
Educational Development prevailed, and Population Services International then
prohibited the use of its condom brand by the Academy for Educational Development.
As a result, USAID/Tanzania, with the approval of USAID’s General Counsel, had to
develop a new condom brand for USAID. The development of this new condom took
months, and was unanticipated by both the Mission and the Academy for Educational
Development when the contract was awarded.              The Academy for Educational
Development did not plan to receive its first shipment of male condoms from South
Korea until March 2006.

The Academy for Educational Development was scheduled to receive $3.4 million in FY
2005 funding for prevention activities, of which $3.1 million were for the “other
prevention” category that included condoms. We selected two key outputs from the
Academy for Educational Development’s reported outputs, and as shown in the table
below, only about 12 and 2 percent of these two outputs had been achieved.

                                                      Planned        Achieved
Output description                                    FY2005         FY 2005        Percentage
                                                       Output         Output         Achieved

Number of individuals reached with                   1,715,000        206,040          12%
community outreach prevention activities
promoting abstinence and/or being faithful


Number of individuals reached with                   5,575,000        116,287          2%
community outreach prevention not focused
on abstinence or being faithful


We did not verify any of the Academy for Educational Development’s outputs because
the reported outputs were significantly behind schedule. However, we did visit several
HIV/AIDS high-risk locations (a movie theater, a kitchen party16 and a brothel) and
observed displays of female condoms available for sale.17 We also observed posters
advertising the Academy for Educational Development’s branded condoms prominently
posted. Subsequently, we briefly visited two bars with the Academy for Educational

16
  A kitchen party is a euphemism that refers to a female condom promotional event geared
toward prostitutes.
17
     The cost was approximately 10 U.S. cents per a two-pack of female condoms.




                                                                                             14
                                                                                  APPENDIX III


Development activities, and observed female condoms being distributed in one of the
bars.18

African Medical and Research Foundation – Two of three key African Medical and
Research Foundation’s outputs were not met by September 30, 2005. FY 2005 funds
for the African Medical and Research Foundation were not obligated until October 12,
2005. Thus, the African Medical and Research Foundation could not timely fund its sub-
grantees' activities in order to meet all of its FY 2005 planned targets.

The African Medical and Research Foundation was allocated $3.5 million in FY 2005
funding for prevention and care activities, of which $3.3 million is for counseling and
testing, and $0.2 million is for Prevention of Mother to Child Transmission (PMTCT).
The African Medical and Research Foundation implements its program through 45 sub-
grantees. We selected three key outputs from the African Medical and Research
Foundation’s reported outputs, and as shown in the table below about 73 percent, 121
percent, and 24 percent of the outputs from these activities had been achieved.

                                                      Planned         Achieved
Output description                                    FY2005          FY 2005        Percentage
                                                       Output          Output         Achieved

Number of individuals who received                    150,000          108,789           73%
counseling and testing, and that received
test results


Number of individuals were trained/re­                    364              439          121%
trained in HIV Counseling and Testing


Number of pregnant women counseled,                   15,00019          3,576            24%
tested, and that received test results


We visited an African Medical and Research Foundation Training Center in Dar es
Salaam, Tanzania, which also had the largest volume of counseling and testing patients
of the 46 African Medical and Research Foundation clinics. We reviewed patient data
and found an insignificant (less than 0.4 percent) difference between the sum of the
quarterly totals and the total reported to USAID. They explained that this difference was

18
   We did not observe evidence of sales of the female condom on the second bar. The Academy
for Educational Development representative told us that the owner of this bar wants to be discrete
about condoms.
19
   The implementer told us that this PMTCT target was too large, as it was based on the
assumption of a pregnancy rate of 9.3 %, but the area rates in which the program operated had
lower pregnancy rates. The 9.3% is a national rate, estimated by the Government of Tanzania.
Other factors mentioned by the implementer were inexperience with PMTCT activities, sites in
rural areas where people are hard to reach, and late funding.




                                                                                               15
                                                                            APPENDIX III


due to people that were HIV-tested, but for some reason did not receive the exam
results. We also selected individual names from these forms and verified that there was
a record of these individuals having received services. In Arusha, we visited a
counseling and testing clinic operated by Uzima, an African Medical and Research
Foundation subgrantee. We reviewed monthly records for a complete year and found an
insignificant (about 0.2 percent) difference between the sum of the monthly totals and
the total reported to USAID. As in Dar es Salaam, they also explained that this
difference was due to people that were tested, but for some reason did not receive the
results. We did not trace records to individual files, as the files had been moved to Dar
es Salaam.20

Elizabeth Glaser Pediatric AIDS Foundation (Glaser Foundation) – Three of four key
outputs were met, despite the late receipt of FY 2005 funds. Funds for FY 2005 were
not obligated until October 12, 2005. The Glaser Foundation began its FY 2005
activities in January 2005, using FY 2004 funds. It has a $2.8 million budget, all for
PMTCT activities. The Glaser Foundation is a grant-making mechanism, and it passes
down funding to five public health care centers and three faith-based organizations. We
selected four key outputs, and as shown in the table below, three of the four outputs had
been met.

                                               Planned          Achieved
Output description                             FY 2005          FY 2005        Percentage
                                                Output           Output         Achieved


Number of service outlets providing the            115              138           120%
minimum package of PMTCT services


Number of pregnant women provided
with PMTCT services, including                  51,217           60,772           118%
counseling and testing


Number of pregnant women provided
with a complete course of antiretroviral         2,810             2,055           73%
prophylaxis in a PMTCT setting21


Number of health workers newly trained
or retrained in the provision of PMTCT            750               975           130%
services


20
  Given the low error rates, we decided not to pursue this review upon our return to Dar es
Salaam.
21
  This output was not met because a significantly lower HIV prevalence rate was observed
among the tested women than the national average (5.6% vs. 9.6%, or a 42% lower rate), as
explained to us by Glaser Foundation and USAID/Tanzania officials.




                                                                                         16
                                                                           APPENDIX III


We visited a health center that receives Glaser Foundation funds through Engender
Health. EngenderHealth conducts training on mother-to-child HIV prevention. The
course consists of a week of theory and a week of practice, and follows Government of
Tanzania protocols. The Glaser Foundation also trains trainers for such course. We
checked some program data for two months, and found a minor mistake. The number of
women that had HIV+ tests in a particular month was 73, but the summary reported 69,
so 4 women were missed. The data for another month agreed. We also checked the
summary data that the clinic sends to the Glaser Foundation and compared it to the
Glaser Foundation’s report that breaks down the data among the clinics, and the data
also agreed.

CARE – CARE’s activities progressed as planned in FY 2005, despite the late receipt of
FY 2005 funds. CARE’s FY 2005 funds were not obligated until July 15, 2005. CARE
reported that most of its FY 2005 activities were funded using FY 2004 funding, and that
between April and July 2005, CARE received no funding at all from USAID. CARE has
$5 million in FY 2005 funding for care activities, of which $4 million were for palliative
care and $1 million was for orphans and vulnerable children.

For palliative care activities, CARE procures drugs and home based care kits and
provides money and training through sub-contractors that provide volunteers. Support
for orphans and vulnerable children includes paying for school fees such as books,
supplies, and uniforms. Subgrantees pay for these items directly from CARE funds.
Income generating activities are provided, but limited to food production. We selected
two key outputs from CARE's reported outputs, and as shown in the table below about
100 percent and 97 percent of the outputs from these two activities had been achieved.

                                                 Planned        Achieved
Output description                               FY2005         FY 2005       Percentage
                                                  Output         Output        Achieved

Number of individuals provided with general       12,500          12,473         100%
HIV-related palliative care


Number of orphans and vulnerable children         25,000          24,277          97%
served


We visited a health center run by a faith-based organization in Iringa. This center
implements activities for both orphans and vulnerable children, and palliative care. We
reviewed the registers for a one-month period. The number of names agreed with the
subtotals reported for that month. We also selected one name from the register for each
activity, and compared the information with the individual person’s file. In both cases,
the information on the register agreed with information on the individual’s file. However,
due to a confusion caused by a CARE form, we found slight undercounts (2 and 7
percent) in the totals for both orphans and vulnerable children and palliative care
activities, respectively. Also in Iringa, we visited a subgrantee, Alpha Dancing Group,
and we found that it had an undercount of less than 3 percent (as described under the
monitoring finding on page 6) in its orphans and vulnerable children program, as well as
an overcount of 15 percent on its palliative care program.



                                                                                        17
                                                                                     APPENDIX III


We visited a 15-year-old girl who lost both of her parents due to HIV/AIDS. She is
supporting22 her three siblings and her own toddler. CARE provided school uniforms
and food for her family, and provided a one-time 5,000 schillings (about $4) payment.
We also visited an older female who, because of her HIV-positive status, was rejected
by her then-husband’s family, and subsequently, by her own family. Her husband died
of AIDS complications in 2000. The CARE program provided them with school uniforms
and food.

Family Health International – Its activities progressed as planned in FY 2005, despite
the late receipt of FY 2005 funds. FY 2005 activities did not start until May 2005. FY
2005 funds were not obligated until July 1, 2005.

Family Health International was programmed to receive $3.4 million for prevention
activities in FY 2005, of which $3.2 million were for abstinence and be faithful programs,
mostly focusing on the at-risk group between the ages of 10 to 24 years. We selected
two key outputs, and as shown in the table below, about 113 percent and 4,844 percent
of the outputs from these activities were achieved.

                                                       Planned           Achieved
Output description                                     FY2005            FY 2005       Percentage
                                                        Output            Output        Achieved

Number of individuals reached with                    2,052,000          2,324,931       113%
community outreach prevention activities
promoting abstinence and/or being faithful


Number of individuals reached with                      48,000           2,324,931       4,844%
community outreach prevention not focused
on abstinence or being faithful


We visited Iringa Development of Youth Disabled and Children Care, a faith-based
organization mostly targeting out-of-school youths that promotes abstinence and being
faithful as a mean of preventing HIV/AIDS. We found that its records underreported the
number of individuals reached (refer to finding on page 7). We also visited the Anti-
Female Genital Mutilation Network, another faith-based organization promoting
abstinence, but could not observe or test outputs, since it started receiving funding from
Family Health International in October 2005, and had not commenced activities at the
time of our audit. However, the Anti-Female Genital Mutilation Network had reportedly
performed some planning work, and had displayed its goals and objectives on charts
pasted on its office walls.




22
     To sustain her family, she buys and resells mangoes and firewood.




                                                                                                18
                                                                               APPENDIX IV 



Timeline for USAID/Tanzania FY 2005 Activities23
        FY 2005
  FY     Funds
 2005     Fully     Month    Event
        Available
                    Oct-04   FY 2005 Country Operational Plan (Operational Plan) submitted - 10/30/04
                             5-year Strategy submitted - 10/30/04

                    Nov-04   (No significant activity)

                    Dec-04   Annual report submitted - 12/2/04
                             First Congressional Notification submitted for Emergency needs (did not
                             include FY 2005 Operational Plan requests)

                    Jan-05   Operational Plan provisionally "approved," but funding request is temporarily
                             flatlined to FY 2004 budget level, approximately half of total requested, until
                             the strategy is redone.
                             1st Congressional Notification approved – USAID/Tanzania was not
                             included

                    Feb-05   2nd Congressional Notification for FY 2005 Operational Plan submitted,
                             which included the flatlined amount of funding for Tanzania

                    Mar-05   Revised 5-year strategy approved
                             FY 2005 Operational Plan approved in full
                             2nd Congressional Notification approval and AIDS Coordinator notified
                             USAID/Washington - 3/18/05

                    Apr-05   Funds available to Mission at FY 2004 levels (approximately 50% of
                             requested amounts)
                             Strategic Objective Agreement (SOAG) sent to Ministry of Health

                    May-05   SOAG process underway - sent to Ministry of Finance

                    Jun-05   SOAG signed 6/6/05
                             First Modified Acquisition and Assistance Request Document for FY 2005
                             funding submitted

                    Jul-05   Family Health International Funds obligated - 7/1/05
                             CARE funds obligated - 7/15/05
                             Second Congressional Notification approved - 7/22/05

                    Aug-05   Funds allowed to Mission from second tranche of funding
                             SOAG amendment sent to Ministry of Health and Ministry of Finance
                             Deloitte & Touche funds obligated - 8/24/05



23
  This table was prepared by USAID/Tanzania, who provided us with key documentation
supporting the above timeline, and slightly modified by the OIG.



                                                                                            19

                                                                      APPENDIX IV 




Sep-05   SOAG amendment signed - 9/26/05
         2006 Operational Plan submitted - 9/30/05

Oct-05   African Medical and Research Foundation funds obligated 10/12/05
         Elizabeth Glaser Pediatric AIDS Foundation funds obligated 10/12/05

Nov-05   Review of FY 2006 Operational Plan at OGAG
         Academy for Educational Development funds obligated - 11/7/05
         Annual Report submitted - 11/14/05

Dec-05   Revisions to FY 2006 Operational Plan submitted
         Pact funds to be obligated by 12-15-05


         NOTES:
         * Field support occurs approx. 9/30 at close of FY
         ** 2nd Congressional Notification - 1/2 funds after provisional Operational Plan approval
         *** 3rd Congressional Notification balance




                                                                                      20 

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
